No. 20-1425
IN THE SUPREME COURT OF THE UNITED STATES
C.H. ROBINSON WORLDWIDE, INC.,
Petitioner,
v.
ALLEN MILLER,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I hereby certify that Respondent’s
Brief in Opposition in the above-captioned case contains 5,957 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
Executed June 16, 2021.

Adina H. Rosenbaum
Public Citizen Litigation Group
1600 20th St. NW
Washington, DC 20009
(202) 588-1000
arosenbaum@citizen.org
Counsel for Respondent

